Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENEML




   THE   RYAN WHITE     CARE ACT:


           FUNDING FORMULAS




                    JUNE GIBBS BROWN
                     Inspector General

                         APRIL 1994
                       0EI-05-93-O0330
                       OFFICE OF INSPE~OR                 GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amendq is to protect the integrity of the Department of Health and Human Semites’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Offke of Audit Semites, the
Office of Investigations, and the Offke of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                           OFFICE OF AUDIT SERVICES
The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVALUATION AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of William Moran, the Retional Insmector
Genera, and Na_talieCoen, Deputy Regional Inspector General, for the”Offke of!Evaluat ion
and Inspections, Region V. Participating in this project were the following people

Re~ion V                                                                 Headquarters

Barbara Butq Project Leader                                              Alan S. Levine

Jemifer Antico

Heather Robertson


For a copy of this report, please call (312) 353-4124.

Depatiment of Health and Human Services
        OFFICE OF
   INSPECTOR GENEUL




    THE   RYAN WHITE    CARE ACT:


           FUNDING FORMUWS




                     JUNE GIBBS BROWN
                      Inspector General

                         ApRIL 1994
                        OEI-05-93-00330
                 EXECUTIVE                        SUMMARY

PURPOSE

To examine the current Ryan White CARE Act funding formulas, propose options for
changing the formulas, and examine their potential impact on the distribution of funds in
Fiscal Year 1995.

BACKGROUND

On August 18, 1990, Congress passed Public Law 101-381 entitled The Ryan White
Comprehensive AIDS Resources Emergency (CARE) Act of 1990 (the Act). The
purpose of the Act was to provide “emergency assistance to localities ...
disproportionately affected by the Human Immunodeficiency Virus (HIV) epidemic and
to make financial assistance available to States and other public or private nonprofit
entities to provide for the development, organization, coordination and operation of
more effective and cost efficient systems for the delivery of essential services to
individuals and families with HIV disease.”

The Act was created to establish services for patients with Acquired Immune Deficiency
Syndrome (AIDS) or HIV who would otherwise have no access to health care. It was
also meant to provide emergency relief funding to communities with the highest number
of reported AIDS cases. Congress funded the Act at $221 million for Fiscal Year (FY)
1991, $276 million for N 1992, $348 million for FY 1993, and $579.4 for N 1994. The
President’s FY 1994 budget proposes funding at $672 million.

The Act has four titles. The bulk of the funds fall under Titles I and II. Title I provides
emergency relief grants to cities disproportionately affected by the HIV epidemic. Title
11 provides formula grants to States and territories to improve the quality, availability,
and organization of health care and support services for individuals and families with
HIV disease. Formulas govern the distribution of half of the Title I funds (the other half
is distributed competitively), and all Title II funds.

SCOPE AND METHODOLOGY

The Ryan White Act will be reauthorized in FY 1996. This is the first in a series of
studies which will provide information for the discussion surrounding reauthorization,
Other studies examine the distribution of FY 1992 Ryan White funding by type of service
and Title II consortia activities. A future study will survey grantees concerning several
general aspects of the implementation of the program.

Concerns about the funding formulas were raised by many people we talked to as we
designed the study: congressional staffers, representatives of national organizations,
experts, grantee staff, and Federal officials. We expect the formulas to be an important
focus for discussions during reauthorization.  In this study, we analyze how Title I and


                                              i
Title II funds have been targeted during the 3 years of the program and how changes in
the formulas might affect targeting in the future.

FINDINGS

As the number of high indence cities increases, the proprtion       of lltle Ijimd   going to
cities with the iaqyxt caseti k likely to decrease.

The number of high incidence cities eligible for Ryan White funding increased from 16 in
FY 1991 to 25 in FY 1993 and 34 in FY 1994; HRSA expects an increase by as many as
4 to 7 in FY 1995. With all of these eligible metropolitan areas, or EMAs, receiving
funding, the proportion of funds going to those with by far the greatest number of cases
(i.e. New York, San Francisco, Los Angeles) can be expected to decline in the future,
even in the face of increases in total dollars. Some respondents were concerned that
such dilution of funding for cities with the most cases may conflict with Congressional
intent to target funds to cities experiencing the greatest burden of the epidemic.

The cummt fomauhs have &d to inequities hzjiuuiing between grantees on a per-new-case
bask We found this to be especial& true for I?tle J and less so for l%le IL

The cumulative case counts in the Title I formula have produced significant inequities in
funding between EMAs on a per-new-case basis. For example, between FY 1991 and
1993, on average, San Francisco received $4,354 per new case reported and Chicago,
$1,673. Also during that period, 12 of the 16 EMAs received less than the average
amount per new case of $2,639.

The Title 11 formula produces considerably more equity in funding levels. Two-thirds of
the grantees received close to the average amount per case in that 3 year period.

ALTERNATIVE       FUNDING      OPTIONS

We present four basic options for formulas that could be used to address the inequities
described and target funds to greatest need. These options are not mutually exclusive;
we realize that it could be valuable to combine various ideas to develop an effective
formula. We also recognize that factors other than the ones we have used could be
incorporated into the formulas. Our purpose is to present some general ideas that might
be helpful in constructing a final allocation methodology.

Readers might ask why we propose changing the Title 11 formula, since it produces more
equitable funding than the Title I formula. We believe that while the new-case count in
the current Title 11 formula does significantly reduce inequity, the options we propose
more purposefully ensure equitable funding.

We examined each option against five criteria.        These criteria are:




                                                 ii
Equity: The amount of funding should be the same per case to minimize inequities
between and across geographical areas. Some readers may disagree with this criterion,
believing that formulas should include variables to deliberately target different amounts
of funding to grantees based on their varying circumstances and need. However, we
believe that reliable data to establish such variables is lacking. It is also difficult to know
which of many potential variables are most important, and to what extent they should be
built into national formulas. Therefore we have chosen “equity” as a starting point for
national formulas, which Congress could then modi$ as it sees the need.

Ta~eting: Funds should be targeted to areas with the greatest concentration of cases,
and in amounts sufficient for grantees to develop the mandated continuum of care.

Flexibility: Funding formulas should be flexible enough to respond to demographic
changes in the epidemic.

Reasonable Data Req&rnen&K        Data used in the formulas to distribute funds should be
readily available and reliable.

Stability: Aggregate funding to various geographic areas should not fluctuate significantly
from year to year.

OPTTON 1: D&tribute l’ltle I Formula Fund on a Per-Nm-Case Bas& to CitieY w“th a
Si~cant Rqxwtion of All New Cases Reported Natiimdy.

This option targets funds to 41 cities with 72 percent of new cases reported in the 2 years
prior to FY 1995, consistent with Congressional intent to target cities most affected. It
also creates equitable per-case funding.

OK!TON 2 D&tribute lltik I Fundk on a Per-New-Case Basir, Including an Income Factor.

This option applies the Title IXformula to Title I formula funds. The formula is based
on each city’s new cases reported for 2 years prior to FY 1995 and includes a per capita
income adjustment. We select the same cities as under Option 1 to demonstrate this
option.

OK!TON 3: Distribute lltlk II Funds on a Per-New-Case Bash, &cMing            an Ikcome
Factor and A F-g     Floor.

This option establishes an average amount per case by dividing the dollars available by
the number of new cases reported nationally for 2 years prior to FY 1995 and allocates
funds to each State based on its new-case count. It also eliminates both the income
factor in the formula and the $100,000 funding floor currently available to States.

OPTION 4: D&tribute 71de I and Title II Formula Funds on a Per-New-Case Bas& as a
Single Fonnuk Gnanti

This option combines formula funds and distributes them on a per-new-case basis to both
States and high-incidence cities. We use the same cities as in Options 1 and 2 to


                                                 ...
                                                111
demonstrate this option.   We also set a $200,000 floor to ensure a minimum amount of
funding for every State.

COMMENTS

The PHS commented on this report; the full text of their comments is in Appendix D.
The Assistant Secretary for Planning and Evaluation commented verbally. We thank all
those who commented.

In response to the comments we received, and in view of information now available on
the FY 1995 budget request, we recasted our four proposed formulas looking forward to
FY 1995. We believe this updated view will be more helpful during reauthorization
discussions. We also made other editorial changes in the report in response   to the
comments received.




                                           iv
                         TABLE                    OF          CONTENTS


EXECUTIVE           SUMMARY


INTRODUCTION               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FINDINGS          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


 Dilution of Funding           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6


 Funding Disparities           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6


OPTIONS         ...................................................... 10


  Option l . . . . . . . . . .. o......            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


  Option 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


  Option 3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


  Option 4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..O...          . . . . . . . . . 19


APPENDICES

k Current Formulas.....,..                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l

B: Cases and Income Data: Cities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-l

CCasesand          IncomeData:          States     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..C-l

D:AgencyComments                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..D-l
                             INTRODUCTION

PURPOSE

To examine the current Ryan White CARE Act funding formulas, propose options for
changing the formulas, and examine their potential impact on the distribution of funds in
Fiscal Year 1995.

BACKGROUND

As of March 1990, the year in which the Ryan White C.A.R.E. Act was passed, over
128,000 cases of Acquired Immune Deficiency Syndrome (AIDS) had been reported to
the Centers for Disease Control (CDC). Some 78,000 people had died of the disease
and nearly one million were infected with the Human Immunodeficiency Virus (HIV)
virus. The rate of acceleration of the disease and the cost of care were both cause for
alarm.

Until 1990, the Federal response to the AIDS epidemic had been primarily prevention,
through the CDC, and research, through the National Institutes of Health (NIH). In
Fiscal Year (FY) 1990, the Public Health Semite (PHS) as a whole spent $1.6 billion on
AIDS/H~      the CDC spent $443 million of this on prevention and NIH spent $744
million on research.

In the first decade of the epidemic, financing of AIDS-related health care shifted
increasingly to the public sector as those affected turned to Medicaid and Medicare to
finance their care. In FY 1990, the Federal Medicaid share of spending for HIV/AIDS
was $670 million, and Medicare spending was $110 million. Social Security expenditures
for HIV/AIDS in that year totalled $249 million, with $210 million for the Disability
Insurance program and $39 million for the Supplemental Security Income program.

Towards the end of the first decade, while the vast majority of AIDS cases were still
reported in metropolitan areas, rural areas were beginning to experience an increase in
cases. The AIDS/HIV population also began to change, with an increasing rate of
growth in new cases among groups which historically have difficulty accessing care: the
poor, minorities, homeless and intravenous drug users.

On August 18, 1990, Congress passed Public Law 101-381 entitled The Ryan White
Comprehensive AIDS Resources Emergency (CARE) Act of 1990 (the Act). The
purpose of the Act was to provide “emergency assistance to localities disproportionately
affected by the Human Immunodeficiency Virus epidemic and to make financial
assistance available to States and other public or private nonprofit entities to provide for
the development, organization, coordination and operation of more effective and cost
efficient systems for the delivery of essential services to individuals and families with HIV
disease.”



                                              1

The Act was created as a comprehensive response to the HIV epidemic and its impact
on individuals, families, communities, cities, and States. It was to establish services for
AIDS and HIV patients who would otherwise have no access to health care. It was also
meant to provide emergency relief funding to communities with the highest number of
reported AIDS cases.

The Act is multifaceted, with four titles directing resources to various entities and
allowing grantees maximum flexibility in the use of funds, particularly at the local level.
The Federal role is minimized in favor of State and local control. The Health Resources
and Services Administration (HRSA) in the Public Health Service administers Titles I, II,
and III(b) of the Act. The CDC was to administer Title III(a), which has not been
funded to date.

Congress funded the Act at $221 million for FY 1991, $276 million for FY 1992, $348
million for FY 1993, and $579 million for FY 1994. The President’s FY 1995 budget
proposes funding at $672 million.

Title I

Title I provides emergency relief grants to cities (eligible metropolitan areas (EMAs))
which have reported a cumulative total of more than 2,000 AIDS cases, or a per capita
incidence of 25 AIDS cases per 100,000, to the CDC by March 31 of the year preceding
grant awards.

Within 60 days after an appropriation becomes available, HRSA is required to allocate
(formula) funds to grantees. Grants are for HIV-related outpatient and ambulatory
health and support services. In-patient services are not permitted except for case
management that prevents unnecessary hospitalization or expedites discharge.

Half of the funds are distributed through a formula and the other half competitively, as
supplemental grants, to EMAs which have demonstrated a severe need for financial
assistance to address the epidemic and the ability to allocate funds expeditiously to areas
of greatest need.

Title I funds comprised 56 percent of the FY 1994 Ryan White appropriation.   In FY
1991, 16 grantees received $88 million. In FY 1992, 18 grantees received $120 million.
In FY 1993, 25 grantees received $185 million. Congress appropriated $325.5 million for
34 grantees in FY 1994, an increase of 76 percent over FY 1993. The President has
requested $364.5 million for up to 41 grantees in FY 1995.

Title 11

Title 11,including Special Projects of National Significance (SPNS) (see next section),
comprised 33 percent of the FY 1993 Ryan White appropriation.        This title provides
formula grants to States and territories to improve the quality, availability, and



                                              2

organization of health care and support services for individuals and families with HIV

disease.


A major intent of Title II was to develop service delivery systems to provide essential

services throughout the course of HIV disease. Congress envisioned the establishment of

community-based, coordinated, continuums of care to which everyone with HIV would

have access. Another intent was that funds be directed to both urban and rural areas,

with a special emphasis on areas most affected as well as the needs of smaller cities and

rural areas. Priority was to be given to low income individuals, children, families, and a

variety of special populations. To get the money out quickly to meet the greatest needs,

States are required to allocate 75 percent of services within 120 days after an

appropriation becomes available.


States may use funds in one or more of four ways. They may establish HIV care

consortia consisting of public and nonprofit private organizations and assist in the

planning, development, and delivery of comprehensive outpatient health and support

sexvices. They may provide home- and community-based care services including

outreach services to individuals in rural areas. They may provide assistance to assure the

continuity of health insurance coverage. Finally, they may provide appraved treatments

that prolong life or prevent serious deterioration of health.


Title II was funded at $88 million in FY 1991, $107 million in FY 1992, $115 million in

FY 1993, and $183.9 million for FY 1994. There were 54 State and territorial grantees in

FY 1993. The President has requested $213.8 million for FY 1995.


Special Proiects of National Significance: Title II also establishes a program of Special

Projects of National Significance (SPNS), for which up to 10 percent of the Title II

appropriation is set aside. These are competitive grants to public and private nonprofit

entities for special programs. Funds are provided on a 3 year cycle for projects that

contribute to advancing knowledge and skills in the delivery of health and support

services. In FY 1991, HRSA awarded approximately $4.4 million for 22 projects. These

projects continued in FY 1992 with $5.2 million and four new projects funded with an

additional $836,000. In FY 1993, nearly $6.1 million was awarded to support 27 projects.

An additional $2.9 million, $4.8 million, and $5.1 million in W 1991, 1992, and 1993,

respectively, was mandated by Congress to be used for reimbursement of dental health

providers who provided uncompensated care to people with HIV/AIDS.


Title 111


Title III(a), intended to provide formula grants to States for early intervention services

on an outpatient basis, and intended to be administered by CDC, has not been funded to

date. Title III(b) supports early intervention semices on an out-patient basis, including

counseling, testing, referrals, clinical and diagnostic services, and other therapeutic

services. It provides competitive grants to private non-profit organizations and public

migrant, community, and homeless health centers, hemophilia centers, and federally-

qualified health centers.



                                             3
Title IH(b) funds comprised 14 percent of the FY 1993 Ryan White appropriation.      The
title was funded at $45 million (121 grantees) in FY 1991, $49 million (136 grantees) in
FY 1992, $48 million (136 grantees) in both FY 1993 and FY 1994. There were 54 State
and territorial grantees in FY 1993. The President has requested $66.9 million for FY
1995.

Title IV

Title IV was to provide demonstration grants for research and services for pediatric
patients, evaluation and reports, and requires studies on partner notification and HIV
disease in rural areas. Congress appropriated $22 million for FY 1994 for existing HRSA
pediatric and adolescent AIDS demonstration projects to be folded into Title IV. The
President has requested $27 million for FY 1995.

SCOPE AND METHOIXXDGY

The Ryan White Act will be reauthorized in FY 1996. This is the first in a series of
studies on the implementation of the Ryan White Act which will provide information
useful for the discussion surrounding reauthorization. Other reports are: FY 1992 Title I
and Title II Expenditures (OEI-05-93-O0331); Special Projects of National Significance
(OEI-05-93-O0332); Consortia Activities (OEI-05-93-O0333); and a Technical Report of
FY 1992 Expenditures (OEI-05-93-00334).

This study focuses on the formulas governing the distribution of Ryan White Title I and
Title II funds, and how certain changes in those formulas would affect distribution in the
future. Concerns about this issue were raised by many people we talked to as we
designed this study: congressional staffers, representatives of national organizations,
experts, grantee staff, and Federal officials. We expect the formulas to be an important
focus for discussions during reauthorization.

In the study we compare the relative distribution of Ryan White funding allocations
between States and high incidence cities (EM&) for FY 1991, FY 1992, and FY 1993.
We compared trends in funding levels. We use case data provided by CDC for this
analysis. Then, based on the President’s FY 1995 budget request, we calculate FY 1995
allocations for Titles I and 11using formulas based on factors other than cumulative case
counts. We assess the impact of these new formulas on allocations to States and EMAs
by comparing them to projected FY 1995 allocations under the current formulas.

The next study in this series will suxvey grantees concerning several general aspects of the
implementation   of the program.

We conducted this inspection in accordance with the Standards for Inspections issued by
the President’s Council on Integrity and Efficiency.




                                              4

                                       FINDINGS



As a backdrop    to this discussion, it is important to understand not only the formula
governing each    Title, but also a new AIDS case definition implemented by the CDC in
January 1993.    Because each formula is based on case counts, this new definition is
bound to have    a significant impact on the distribution of funds.

The CDC’S expanded AIDS surveillance case definition of AIDS includes all HIV-
infected persons who have <200 CD4+ T-lymphocytes, or a CD4+ T-lymphocyte
percentage of total lymphocytes of <14 and pulmonary tuberculosis, recurrent
pneumonia, or invasive cervical cancer, in addition to the clinical conditions included in
the AIDS surveillance case definition published in 1987.

Before it was put into effect, the CDC estimated that this expanded definition would lead
to a 75 percent increase in the number of newly reported cases in the first year it was in
effect; experts then expected the rate of increase to level off. However, in early March
1994, the CDC reported that in the first year of the definition, the number of cases
reported grew by 111 percent, from 49,016 in 1992 to 103,500 in 1993.

Half of Title I funds are distributed to high-incidence cities (eligible metropolitan areas,
or EMAs) through a formula based on both (1) cumulative AIDS cases reported to CDC
as of March 31 of the most recent fiscal year and (2) per capita incidence (cases per
100,000) of cumulative AIDS cases. 3 The formula weights the EMAs’ cumulative total
of AIDS cases more heavily to target funds to areas experiencing the greatest burden of
the epidemic (in the law, the “localities disproportionately affected’’).4 The remaining
half of Title I funds are distributed to EMAs via competitive supplemental grants.

Title II funds are distributed to all States, Puerto Rico, the District of Columbia, and up
to U.S. territories (all referred to as “States” in this report) via a formula. The formula
distributes funding on a proportional basis and is a function ofi (a) a State’s total
reported AIDS cases for the 2-year period preceding the fiscal year in which funds are
requested, and (b) a State’s average per capita income divided by the U.S. average per
capita income. States receive the greater amount of the formula calculation or a
minimum allocation of $100,000. Unlike Title I, which targets only the cities with the
highest (cumulative) case counts, Title II provides funding for all States.



       .
       > AppendixA presentsthe formulasfor Title I, Title II, and the fouroptions presentedin this report.

       4 In the past year, the Office of Managementand Budget has also made changes in the definition of
MetropolitanStatisticalAreas. These changesaffectthe numberof AIDScases  being reportedin metropolitan
areas,which in turn affects the distributionof Title I formulafunds.


                                                   5
As thenumber of high inckknce citks increases, the proportion of lltle Ifhn& going to
citkwdh thekzrgest caseknzdkklike~ todecreasc

The number of EM% has increased from 16 in FY 1991 to 34 in FY 1994. The
President’s FY 1995 budget projects an increase of up to 7 EMAs for FY 1995. While
this means that more cities can access Title I funds, it also inevitably means that the
proportion of formula funds going to the ENL% with by far the most cases will decline,
even if total dollars increase. For example, from FY 1991 to FY 1993, New York’s
proportion of total formula funds declined from 37 to 31 percent despite increased
appropriations.

Possible dilution of funding for areas with the largest caseloads concerns some of the
people we spoke with at the beginning of our study. They view it as conflicting with the
intent of Congress to target funds to areas experiencing the greatest burden of the
epidemic. They seek ways to target Title I funds in the face of increasing needs and
appropriations which at some time in the future are certain to level off.

The cumntfonnuiks have kd to bquitia in fiuuhg between grantees on a per-new-case
bask We f&th&to     betxpeci@tr wforTIde&     andksssofor   lltle17.

Some people we spoke with as we designed this study expressed the view that Ryan
White funding across grantees should be equitable - that is, that grantees should receive
the same amount of funding per case. They also questioned whether the cumulative case
count in the Title I formula is the most appropriate way to address the current geography
of the AIDS epidemic, since it includes persons who have died. Instead, they proposed
funding based on new cases reported.

We examined the distribution of Title I and Title 11funds between FY 1991-1993 to
learn whether either formula has produced significant funding inequities on a per-case
basis (new cases reported).

       l%e Title I formula has produced significant inequities in jimding on a per­
       ctise bash between high incidence cities.

A look at the 16 cities funded from FY 1991 through FY 1993 shows both a wide range
and significant differences in funding levels per case. For example, Table 1 on the next
page shows that in these three years, on average, San Francisco received $4,354 per case
while Chicago received $1,673, a difference of 160 percent. Furthermore, the national
average amount received per case was $2,639 in those years; yet 12 of the 16 EMAs
received less than that amount.

These inequities exist primarily due to the cumulative case counts. Cities such as San
Francisco and New York which have been struggling with the AIDS epidemic for many
years, have much higher cumulative case counts than other cities which at present are
experiencing large rates of increase in their caseloads. This disparity in cumulative case


                                              6
counts points to a weakness in the Title I formula: it is not flexible enough to meet the
changing demographics of the epidemic.




                                         TABLE 1


                    TITLE 1 FORMULA        FUNDING     PER REPORTED           CASE
                                      FOR ORIGINAL         16 EMAs
                                       FY 1991-FY      1993


                                                   Funds       New Cases
               EMA
                          1991-1993         1990-1992          $/Case
                                                 ------            ------         ------
               San Francisco
               $26,206,255               6019           $4,354
               New York
                     65,188,920              19326            3,373
               Jersey City
                    3,671,757               1124           3,267
               Newark
                         8,099,881              2900            2,793
                Houston
                       7,817,958              3551            2,202
                Los Angeles
                 17,180,530               7882            2,180
                Miami
                         8,852,698              4244            2,086
               Dist. of Col.
                  7,283,634              3543            2,056
               Dallas
                         4,239,970              2093            2,026
                Ft. Lauderdale
                4,903,566              2517            1,948
               San Diego
                      3,600,036               1877           1,918
               San Juan
                       5,565,320               2929           1,900
                Boston
                        3,776,815               2032           1,859
                Philadelphia
                  4,925,715               2658           1,853
               Atlanta
                        5,297,244               2952           1,794
                Chicago
                       5,892,174               3522           1,673


                TOTAL
                    $182,502,473               69,169          $2,639

                Funding Distribution from HRSA; case data from HIV/AIDS Surveillance,
                First Quarter Edition, Issued April 1991, 1992, and May 1993.   Case
                COWItSare cases reported as of March 31 of the preceding year.




We also looked at Title I formula and supplemental funds combined (Table 2). The
degree of variation in per-case amounts across grantees is roughly the same as for the
formula funds alone. However the dollar amounts are much higher: San Francisco
received the largest average amoun$ $9,782 per case, and San Juan the least, $3,394- a
difference of 188 percent. Also, while the average amount received per case was $5,260
between FY 1991-1993, 13 of the 16 EMAs received less than this amount.


                                                      7
       TITLE I FORMUIA       AND SUPPLEMENTAL FUNDING                PER REPORTED      CASE
                                    FOR ORIGINAL          16 EMAs
                                    FY1991    -FY1993


                                                  Funds             New Cases
       EMA                                   1991-1993              1990-1992         $/Case
       ---------                                 ------                 ------       ------
       SanFrancisco
                         58,875,136                   6,019      $9,782
       Jersey City
                           7,362,801                   1,124        6,551
       New York
                          113,821,426                   19,326         5,890
       Houston
                              17,333,540                  3,551         4,881
       LosAngeles
                           36,826,670                  7,882         4,672
       Boston
                                9,214,779                   2,032        4,535
       Dist. of Col.
                        15,967,546                  3,543         4,507
       Vewark
                               13,018,014                  2,900         4,489
       Miami
                                18,683,630                  4,244         4,402
       Oallas
                                9,041,156                  2,093         4,320
       San Diego
                             8,000,908                   1,877        4,263
       Zhicago
                              14,948,165                  3,522         4,244
       Philadelphia
                         10,624,115                  2,658         3,997
       ct. Lauderdale
                        9,464,341                  2,517         3,760
       4tlanta
                              10,726,012                  2,952         3,633
       San Juan
                              9,940,840                  2,929         3,384


       rOTAL
                            $363,849,079                   69,169       $5,260


       %nding distributionfrom HRSA; case data from HIV/AIDS Surveillance, First Quarter
       Edition Issued April 1991, 1992, and May 1993. Case counts are cases reported as of
       March 31 of the preceding year.



                            The Ilde II fomudk produces greater
                            @u@? equip than the lWe I foimuik

At first glance the figures presented in Table 3 would appear to belie this statement,
since between FY 1991 and FY 1993, Title II dollars per case ranged from $17,647 in
South Dakota to $1,911 in Hawaii, with an average of $2,152. This is an anomaly,
however, stemming from a handful of States that have extremely high per-case averages.
North and South Dakot~ for example, received $17,647 and $16,013 per case
respectively. A few States like these have extremely low case counts yet nevertheless are
eligible to receive the minimum Title II grant of $100,000.

The more important fact to note is that despite this anomaly, over two-thirds of the 54
Title II grantees received funding between $2,000 and $2,475 per case - close to the
average of $2,152. This is because the formula is based on a new-case count rather than
a cumulative count.



                                                          8

                                               TABLE 3

             TITLE II FUNDS PER REPORTED CASE: FY 1991 -FY 1993

                                         Funds       New Cases
STATE                               1991-1993         1990-1992            S/Case
                                          ------            .--—             —.—
 South Dakota                          300,000                 17          17,647
 North Dakota                          219,872                 13          16,913
Wyoming                                244,037                 34           7,178
 Vermont                               300,000                 59           5,085
Alaska                                 300,000                              4,688
 Montana                               256,197                :             4,342
 Puerto Rico                       16,520,102             4,712             3,506
 Idaho                                300,000                 86            3,486
Arkansas                            1,244,633               503             2,475
 Kentucky                           1,173,506               483             2,430
Mississippi                         1,625,056               679             2,393
Alabama                             2,057,855               893             2,304
Utah                                  738,197               321             2,300
Iowa                                  490,499               214             2,292
Nebrasks                              363,877                159            2,269
Oklahoma                            1,396,972               618             2,260
Minnesota                           1,276,798               569             2,244
Texas                              20,139,425             9,021             2,233
Louisiana                           4,824,689             2,162             2,232
North Carolina                      3,605,739             1,619             2,227
Delaware                              554,356               249             2,226
Wisconsin                           1,295,753               586             2,211
West Virginia                         416,071                189            2,201
Arizona                             2,092,429               952             2,196
Tennessee                           2,248,535             1,027             2,169
New Mexico                            717,498               326             2,167
Missouri                            3,833,362             1,787             2,169
Oregon                              1,846,634               853             2,165
Georgia                             8,376,328             3,677             2,161
Pennsylvania                        7,827,679             3,541             2,154
Nevada                              1,305,177               611             2,136
Rhode Island                          577,819               271             2,132
New York                           48,330,884            22,669             2,132
Guam                                    10,656                  5           2,131
Maine                                 376,142               178             2.113
Ohio                                3,967,672             1,683             2,107
Illinois                            8,716,907             4,165              2,093
South Carolina                      2,247,710             1,079              2,083
Virginia                            3,751,967             1,804              2,080
Florida                            28,482,462            13,710              2,077
Virgin Islands                        101,484                 49             2,071
Indiana                             2,104,243             1,021              2,061
Maryland                            5,711,996             2,781              2,054
Washington                          3,619,091             1,797              2,014
California                         45,696,302            22,757              2,006
Colorado
                           2,497,921             1,249              2,000
New Hampshire
                        307,027               154              1,994
Dist. of Col.
                      3,921,396             1,964              1,977
Massachusetts
                      5,086,166             2,609              1,949
Michigan                            3,745,223             1,931              1,940
Kansas                                826,931               429              1,926
Connecticut                         2.747,197             1,430              1,921
New Jersey                         13,432,803             7,012              1,916
Hawaii                              1,068,159               559              1,911

TOTAIJAVG                       $275,019,614            127,791            $2,152

Funding distrhtial   frwn HRSA; cam data frun HIV/AIDS SUWSIIIMCORsprxt. FwstOusIIsr Edithm,

Issued A@ll 1901, 1SS2, and Mny 1W3, Case counts are casea repated a.! of March 3! C4Iho pfOCSdintJyew





                                               9

                                       OPTIONS


We present four options, and some variations of them, for funding formulas that could be
used to address the inequities described and target funds to need. We recognize that
formulas could be constructed in countless ways; our intention is to present some general
ideas that might be helpful in constructing a final allocation methodology. We also do
not see these options as mutually exclusive. We believe that it could be valuable to
combine various ideas to develop a formula.

We realize that the best reflection of the current geographical impact of the AIDS
epidemic would be prevalence data - a count of live AIDS cases by city and State.
However, not all States report AIDS-related deaths to CDC, so that reliable prevalence
data is not available. Also, data on the number and the proportion of people with AIDS
and HIV requiring care, those already in care, and the insurance status of those people,
is not available.

Therefore we base our options on 2-year counts of new AIDS cases as reported by CDC
and published in their “HIV/AIDS Sumeillance Report, First Quarter Edition,” issued in
October, 1993. The case counts are from October 1991 to September 1993, which
includes three quarters (January-September 1993) of reporting using the new CDC
definitions These counts are the most up-to-date counts available for cities and States.
We view these new-case counts as more accurate than cumulative counts in terms of
reflecting those alive with AIDS today who need semices.

We examine each option against five criteria which we believe could be useful in
assessing any new formula. We recognize that there are inherent tensions between some
of these criteria, making it unlikely that a formula could be devised that would fully
satis~ all of them. Our purpose in proposing them is to provide a framework within
which potential formulas, and the tradeoffs inherent in them, can be evaluated in a
systematic manner. The five criteria are:

Equ@: The amount of funding should be the same per case to minimize inequities
between and across geographical areas.

Targeting: Funds should be targeted to areas with the greatest concentration of cases,
and in amounts sufficient for grantees to develop the continuum of care called for in the
law.

FZmibility: Funding formulas should be flexible enough to respond to demographic
changes in the epidemic.

Reasonable Datu Requiremenfi: Data used in the formulas to distribute funds should be
readily available and reliable.



       5 Case counts through March 1994 will be usedbyHRSA toestablish
                                                                   FY 1995allocations.



                                            10

Stability: Aggregate funding to various geographic areas should not fluctuate significantly

from year to year.


Some readers may question or even disagree that “equity” should be a criterion for

evaluating formulas. Instead, they may advocate including variables in formulas to

deliberately target funds to cities and States based on the differing demographics of the

epidemic and service needs they have. Indeed, both of the current formulas already

include such variables: incidence (cases per 100,000) in the Title I formula and per capita

income data in the Title II formula. Many other potential variables were mentioned to

us during the course of this study: HIV seroprevalence rates (since services are also

provided to people with HIV infection but not an AIDS diagnosis), numbers of infected

women and children, the cost of health care in different locations, tuberculosis and

sexually transmitted disease rates, the migration of people with HIV/AIDS, minority

population statistics, poverty statistics, health insurance statistics, and others.


We understand that it could be valuable to include new variables such as these in future

formulas, but for several reasons we have chosen not to do so in this report. First, we

believe that any national formula governing the distribution of funds among grantees that

are by nature so diverse should strive to achieve equity as much as possible. Second, we

are concerned that much of the data mentioned above either does not exist or is not

completely reliable. Third, based on our reading and discussions for this study, we do

not believe there is consensus about which variables are most important or the extent to

which they should be factored into a national formula. Finally, as the Act is structured

today, monies are available to meet the special circumstances and needs of individual

grantees through the Title I supplemental funding mechanism.


For these reasons, we have chosen to present a few simple, basic options, and describe

some variations which Congress could use to target funds in response to the changing

face of the epidemic and the specific needs of grantees. We present each option looking

ahead to FY 1995, which we believe is the most useful approach for the discussion

surrounding reauthorization.    It is important to note that we present the information

available at this time to show how new formulas might affect funding; however the actual

amount of the FY 1995 allocations, whether governed by the current formulas or

different formulas, will be highly dependent on the size of the actual appropriation, the

number of cases reported by cities and States as of March 1994, and, for Title I, the

number of cities eligible for funding.


Readers will note that in Tables 4, 5, and 8, we have identified a number of EMAs by

letter rather than name (City ~ for example). Our FY 1995 projections, under both the

current and proposed formulas, are based on CDC data as of September 1993.

However, these particular cities may or may not be eligible for Title I funding in FY

1995, since eligibility will be based on case counts and incidence rates not currently

available.


All tables show the FY 1994 allocations reported by HRS~ and projected FY 1995

allocations under the current formulas and the proposed options.



                                              11
OPTION 1: Dktn3ute Title I Formula Fund on a Per-tie Basis to (l-ties wr”tha
Sign@cant Pkpwtion of AU New Cases Reprted National&

This option targets funds to the cities with the highest numbers of new cases, consistent
with Congressional intent. It also eliminates the funding inequities produced by the
cumulative case count in the current formula. Table 4 presents the results of applying
this option to the proposed Title I formula amount ($182.2 million) for FY 1995.

First we calculate projected FY 1995 formula allocations using the current formula, as a
basis for comparison with this Option 1 new formula. We identify seven metropolitan
areas that might quali~ for Title I funding in FY 1995 based on either a cumulative case
count or incidence. These seven cities, combined with the existing 34 grantees, bring the
total number of possible EMAs to 41, which is the maximum number of cities that
HRSA predicts will be eligible for funding in FY 1995. To identify the cities, we use
CDC case counts as of September, 1993 .6 We then calculate projected allocations for
all 41 cities using the current formula, which is based on cumulative case counts and
incidence.

We next calculate projected FY 1995 allocations under the new formula. We identify the
41 metropolitan areas with the highest number of new AIDS cases reported for the two
year period, October 1991 to September 1993. This period includes three quarters of
reporting under the new CDC definition. Collectively, these 41 cities reported 72 percent
of all new cases nationally in that period and 86 percent of all new cases reported in
metropolitan areas (population 500,000 or more).

We then calculate an average dollar amount per case ($1,764) based on these case
counts and the Title I FY 1995 budget request (formula portion only). Last, we calculate
a FY 1995 allocation for each EMA and compare it to the projected allocation under the
current formula.

ANALYSIS

Equity: This option provides the same amount per case ($1,764) for each EMA. Under
the current formula, dollars per case would range from $3,898 to $1,307; 28 of the 41
cities would receive less than $2,000 per case.

Targeting This option targets Title I formula funds to the cities with a strong majority of
new cases reported both nationally and by metropolitan areas. Up to seven new cities
would be funded. The cities with the highest number of newly reported cases would
receive the greatest amount of funding.




       6
      Appendices
               B andC contain
                           thecasecounts,
                                       incidenee,
                                              andpercapita
                                                        incomefigures

                                                                   usedto

calculate   options.

      thefour



                                              12

FZexiM& ~isoption       protides the flefibili~ totarget   aid based onchan@ng   case
counts, whether increasing or decreasing.

Data Re@wwnts       : The data required, new cases reported, is the same as now used in
the current Title II formula.

StubiZdy: Funding is somewhat less stable than if based on a steadily growing cumulative
case count as it is now, since a new-cases count could conceivably rise or fall in any given
year. Using a 3-year case count might lend greater stability.

Ponce, Puerto Rico is the only current grantee that is not eligible for funding under this
option, due to a relatively low new-case count of 522. Of the 33 other FY 1994 grantees,
17 receive increased funding under this option, including two of the largest grantees, New
York and Los Angeles. Fifteen see decreased funding, including San Francisco. One city
sees no change.

VARIATIONS

The incidence factor which is a small part of the current Title I formula could be
retained to target relatively more funds to cities with higher incidence rates. This would
produce some inequity in funding per case, although less than that produced by the
cumulative case count in the current formula.

Alternatively, rather than introducing other variables into the national formula, Congress
could continue to use Title I supplemental funds to target the special needs of individual
EMAs.

IfCongress decided that the impact on the cities that would lose funds (including Ponce)
would be too great, they could hold them harmless at FY 1994 funding levels at a cost of
about $4 million (and at the expense of City H, which would be displaced by Ponce).
Alternatively, Congress could use Title I supplemental funds for this purpose.

Another variation would be to collapse all Title I funds into a single formula grant. This
alternative eliminates funding inequities completely and dispenses with the need for
Federal personnel to review applications and monitor competitive grants. option 4
provides a look at this type of approach.




                                               13

                                                       TABLE 4

                                                       OPTION 1

               TITLE I FORMULA FUNDS DISTRIBUTED ON PER-CASE BASIS TO 41 CITIES
                  WITH MAJORllY OF REPORTED U.S. CASES IN TWO PRIOR YEARS
                            (Ranked by size of grant in ‘New Formula” column.)

FY 1995 Budget Request (Formula Portion):             $182,250,000
.-.                           —-—-——               .-.-—.—           —.. -.—---—     ------ -. -------------
                                   CURRENT FORMULA                    NEW FORMULA                   Diff.:
                                                                                                   Old VS
                                       Actual           Projected             Projected              New
Clw                                  FY1994              FY1995                FY 1995           Formula

New York                          45,835,380          32,980,861             36,066,602
Los Angeles
                      12,617,337          12,898,418             15,667,483                 2%

San Franasco
                     19,056,960          14,221,979             11,441,989                -20%
Chicago
                           4,706,676           5,675,881              7,465,157                 32”A
Washington D.C.
                   5,225,866           6,157,582              6,886,709                 12%
Miami
                             6,875,102           7,235,526              6,608,066                  -9%
Houston
                           5,676,753           6,2=,576               6,366,458                   1%
Philadelphia
                      3,479,453           4,614,459              5,493,495
Boston
                            3,091,876           4,281,146              5,161,945                 A%
Atlanta
                           4,066,062           4,693,862              4,812,760                  3%
San Juan, PR
                      4,561,223           5,147,513              4,784,543                 -7%
Dallas
                            3,445,177           4,293,970              4,521,772
Newark
                            5,166,261           5,395,89!3             4,193,750                -2;;
Baltimore
                         2,232,355           3,663,947              4,050,901                 11%
San Diego
                         2,696,880           3,629,889              3,712,298
Fort Lauderdale
                   3,555,421           4,340,289              3,550,050                -1;:
Tampa-St. Pete
                    1,955,256           3,215,149              3,449,527
Detroit
                           1,623,489
          2,404,019              3,243,190                 3;;
Oakland
                           2,379,546           3,234,108              3,153,248
Riverside/San Bern.
               1,299,021           2,118,013              2,610,071                 z;
Seattle
                           1,617,949           2,760,750              2,587,145
Nassau/Suffolk Co.
                1,403,882           2,426,529              2,433,715
Denver
                            1,626,755           2,593,940              2.371.991                  -::
West Palm Beach
                   1,959,886           3,114,023              2;320:847
               -25%
New Haven
                         1,235,428           2,510,956              2,301,448
                 -8%
Orange Co. CA
                     1,426,850           2,030,880              2,239,723
                 1o%
City A
                                                2,801,110              2,181,526
                +2.%
Orlando
                           1,319,2             2,372,680              2,118,038
               -1 1%
Phoenix
                           1,175,959           1,846,899              2,036,914
                10’?40
Saint Louis
                       1,176,039           1,785,574              1,994,588
                12%
New Orleans
                       1,691,877           2,375,415              1,918,755                -1 9%
Kansas City, MO
                   1,251,712           1,970,528              1,851,740                  -6°k
Bergen-Passaic NJ
                 1,277,031           2,243,109              1,664,802                -26?6
Jersey City, NJ
                   2,306,302           3,533,059              1,643,640                -53%
City B
                                        0       1,744,183              1,594,260                  -9%
City C
                                                2,040,121              1,458,466                -29%
City D
                                                                       1,329,726                na*
City E
                                                1,352,72               1,305,036                  -470
City F
                                                                       1,290,927                    *
City G
                                                1,393,14:              1,208,040                 !?3%
City H
                                                                       1,158,660
Ponce PR
                                              2,034,8;                                       -1 OYYO
City I
                                                1,422,656                          :           -1 00%
City J
                                                1,400,781                          0           -1 00Y.

TOTAL                          $159,994,501         $182,250,000           $182,250,000


�     Not eligible for projected FY 1995 (current formula).




                                                                     14

OPHON 2 lMribute      lltle I Forrnuk Fumik on a Per-Nm-Case Bas@ In&dhg          an
Ihcorne Factor.

This option demonstrates the results of applying the Title II formula to Title I formula
(o~y) tids.    The Title II formula produces a proportional distribution of funds. We
base our calculation on each State or territory’s number of cases reported in the past 2
years. Each State’s proportion of cases is adjusted by the ratio of U.S. per capita income
to the city’s 1989 per capita income, reported by the Census Bureau from the 1990
Census.

We use the same cities as in Option 1 to demonstrate this formula. We compare their
projected FY 1995 allocations as produced by this formula with the projected allocations
under the current formula, based on cumulative case counts and incidence. Table 5
presents the results of these calculations.

ANALYSIS

E@ity This option reduces, although does not eliminate, the funding inequities per case
across EMAs described in our findings, since it is based on new cases rather than
cumulative counts. The current Title I formula, for example, produces funding per case
from $3,898 to $1,307. This option produces a range of $2,320 to $1,554 per case.

Ta~etin~ As with Option 1, EMAs with the largest caseloads and the majority of cases
nationally are targeted, consistent with Congressional intent. Since funds are distributed
on a proportional basis, EMAs with the most cases continue to receive amounts
proportional to their need. In addition, the inclusion of the income factor targets
relatively more money to cities with lower per capita incomes.

FZaibility This option provides the flexibility to target aid based on changing case counts.
However, limitations described below relative to the income data, specifically, mean that
the income-related portion of the formula is less reflective of current realities.

Reasonabk Dahz Requirerrwn& Data requirements for this option would be the same as
now. However, this option requires income data for cities, which is only available
through the national census conducted every 10 years. These figures become more
outdated the farther the year from the Census.

Stab@:     The Title II formula is somewhat less stable than the current Title I formula,
given fluctuations in the number of new cases reported compared with constantly
increasing cumulative case counts.

As with Option 1, Ponce is the only current grantee not eligible for funding under this
option. Seventeen current grantees see increased dollars under this option compared
with the current formula; this includes all of the largest grantees (those with new-case
counts of about 3,000 or above) except San Francisco. Sixteen grantees (San Francisco
included) receive less funding.


                                             15
VARIATIONS

Stability in allocations could be increased by using a 3 year rather than 2 year case count.

Congress could hold harmless those EM% losing funding, at N 1994 Title I formula
levels, using Title I formula funds and decreasing allocations to other EMAs, or using
supplemental funds.
                                       TABLE5

                                       oPnoN 2
              APPLY TITLE II FORMULA TO TITLE I FORMULA PORTION FOR 41 CITIES
                WITH MAJORITY OF REPORTED U.S. CASES IN TWO PRIOR YEARS
                      (Ranked by sizo of grant in ‘New Formula’ column.)


     FY 1995 Budget Request (Formula Potion): $182,250,000
     —            ...
                                  CURRENT FORMULA                       NEW FORMUIA
                                                                                              0!?%
                                        Actual          Projected            P~j~&d            New
     Clw
                             IV 1994            FY 1995                             Formula
                                                                                             —.
     New York
                     46,635,380         32,980,661            34,723,675
     be Angeles
                   12,817,337         12.898,4Y8            15,112,940           1?;
     San Francisco
                19,066,960         14,221,979            10,338,646          -27%
     :;::go
                        4,708,676          5,675,661             7,767,256           37%
                                    8,875,102          7.235.526             7,535,197            4%
     Houeton
                       5,876,753          6:2@576               6,408,124
     Washington D.C.
               5,225,888          6,157,562             6,310,797             X
     San Juan, PR
                  4,581,223          5.147.513             6,293,801           22%
     Philadelphia
                  3,479,463          4,614,459             5,s40,394           27%
     Boston
                        3,091,876          4,281,146             5,043,079           16%
     Newark
                        5,166,261          5,395,693             4.844.752          -1o%
     ;~;
                           4,088,082          4,693,862             4:732:712             1%
                                    3,445,177          4,293,970             4,351,714             1%
     Baltimore
                     2,232,355          3,683,947             4,316,283           16%
     Detroit
                       1,623,469          2,404,019             3.744.121           56%
                                    2,696,880          3,629,869             3;556;333            -2%
     ~~~$ag&
                       1,965,256          3.215,149             3,461,900             8%
                                    3,555,421          4.340.289             3,201,288          -26%
     Oakland
                       2,379,546          3:234:106             3,142,701
     Riverside/San Bern.
           1,299,021          2,116,013             2,560,211           2:2
     Seattfe
                       1.617.949          2.760.750             2.395.271          -13%
     New Haven
                     1;235:428          2,510:966             2:3&:329             -5%
     Denver
                        1,626,755          2,593,940             2,316,924          -11%
     West Palm Beach
               1,969,666          3,114,023             2,261,086          -27%
     City A
                                 0         2,801,110             2.226.796
                                                                               .——              -21%
     Saint Louis
                   1,176,039          1,785,574             2,202; 012          23%
     Nassau/Suffolk Co.
            1,403,662          2,426,529             2.156.453          -11%
     Orlando
                       1,319,944          2,372,680             2:150;611            -9%
     New Orleans
                   1,691,877          2,375.415             2,062,035          -12%
     Phoenix
                       1,175,959          1,846.899             2,057.571           11%
     Orange Co, CA
                 1,426,860          2,030,860             2,017,113            -1%
     Kansas C@, MO
                 1,251,712          1,970.528             1,883,644
     Jersey City
                   2,308,302	         3,533,059             1,703,096          -5:2
     City B
                                            1.744.183            1,598,136            -6%
     Bergen-Passaio
                 1,277,03:         2,243:109             1,467,009          45%
     City C
                                  0        2!040,121             1,466,386          -26%
     Citv                                                           o                           nan
      ,, F
                                   0                              1.412.937
                                                                    0        1:346;473
     8$;
     City D
                                                :       1,352,784
                                                                 0
                                                                              1,318,551
                                                                             1,286.536
                                                                                                  ::%
                                                                                                 na*
                                                0
     City G                                     0       1,393,140            1;148i569           -18%
     City J                                     0       1,400,761                      o       -loo%
     City I                                             1,422,656                        0     -loo%
     Ponce PR                          976,7~           2,034,604                        0     -100%

     TOTAL                       S159.994,501       $182.250,000          $182,250,000
     *Not eligible for projected FY 1995 (current formula),




                                                              16

OITION 3: D&bibute lltik II Funds on a Per-New-Case Basik, Excluding an Income
Factor and A Funding Fkwr.

Readers might ask why we propose changing the Title II formula, since it produces much

more equitable funding per case than the Title I formula. We believe that while the

new-case count in the formula does significantly even out inequities, this option

represents a way to ensure equity more purposefully.


This option establishes an average amount per case by dividing the dollars available by

the number of new cases reported nationally for 2 years prior to the year of funding, and

then allocating funds to each State based on its case count. Also, this option eliminates

both the income factor in the current formula and the $100,000 funding floor available to

States.’


As a basis for comparison, we first calculate projected FY 1995 allocations using the

current Title II formula and based on the FY 1995 budget request less 10 percent for

SPNS funding ($192.5 million). We then calculate projected allocations using the new

formula. Table 6 on page 18 shows the results of these calculations.


ANALYSIS

Equity: Under this option, every State is funded. Every State also receives the same
allocation per case. The current formula produces a wide range in funding per case, in
large part due to the $100,000 floor for States with relatively small case counts. For
example, funding per case ranges from $845 to $20,000 in FY 1994 and would be $1,192
to $12,500 in FY 1995 under the current formula.

While this option creates equitable Title II funding on a per-case basis, it is also true that
States with EMAs in them would receive Title I funds as well. This creates inequity by
raising their total allocation per case (Titles I and II dollars combined) compared to non-
EMA States.

Ta~etin~ The States with the highest number of new cases receive the most dollars.
However, some States might complain that without a minimum allocation, funds are
spread too thinly for them to develop the continuum of care called for in the legislation.

FZaibiZity: This option provides the flexibility to target aid based on changing case
counts, whether increasing or decreasing.

Reasonable Data Requirement.x The data required - new cases reported - is the same as
that used in the current Title II formula.




       7
           MinimumTitle II grantawardsapply only to States and do not include territories..


                                                  17
                                     TABLE 6

                                     OPTION 3

          TITLE II FUNDS DISTRIBUTED ON PER CASE BASIS, NO FLOOR
               (Ranked by size of grant in ‘New Formula column.)

FY 1995 Budget Request (lese SPNS): $192,507,300

                        CURRENT FORMULA                I   NEW FORMULA       I          Diff.:
                                                       I                     I        Old W
                            Actual       Pn&jelctete            Projected               New
STA7E
                    FY1994                                 FY 1995           Formula
.———
                                                  —                     -. -.-.-..—
California
            28,172,762       33,346,929             34,891,648                   5%
New York
              26,126,095       30,924,375             32,417,233                   5%
Florida
               16,361,666       19,366,649             19,533,444                   1%
Texas
                 11,813,625       13,983,535             13,505,065                  -3%
New Jersey
             6@50,&57         7,872,106              8,605,671                   9%
Illinois
               5,363,921        6,349,051              6,475,965                   2%
Puerto Rico
            7,521,643        8,903,0S7              5,901,452                -34%
Georgia
                4,527,265        5,358,760              5,270,823                  -2%
Pennsylvania
           4,421,998        5,234,136              5,202,663                  -1%
Maryland
               3,625,966        4,291,905              4,608,129                   7%
Massachusetts
          3,501,905        4,145,060              4,407,718                   6%
Michigan
               2,874,019        3,401,857              3,388,291                  -o%
Missouri
               2,716,091        3,214,924              3,111,723                  -3%
Connecticut
            2,246,095        2,858,609              2.980,788                 12%
Virginia
               2,403,511        2,644,936              2,934,025                   3%
Ohio
                   2,519,172        2,981,639              2,920,664                  -2%
Dist. of COL
           2,155,767        2,551,892              2,797,745                 1o%
Washington
             2,262,588        2,676,129              2,714,908                   1%
Louisiana
              2,494,411        2,952,531              2,673,490                  -9%
South Carolina
         2,091,875        2,476,066              2,327,446                  -6%
North Carolina
         1,996,053        2,362,646              2,200,663                  -3%
Arizona
                1,655,383        2,196,140              2,151,064                  -2%
Colorado
               1,794,570        2,124,158              2,148,412                   1%
Tennessee
              1,675,354        1,983,047              1,882,532                  -5%
Indiana
                1,394,906        1,651,095              1,604,628                  4%
Alabama
                1,421,553        1,682,633              1,563,210                  -7%
Oregon
                 1,170,946        1,386,000              1,356,118                  -2%
Oklahoma
               1,133,726        1,341,945              1,261,257                  -6%
Wisconsin
              1,069,752        1,288,221              1,234,535                  -3%
Minnesota
                970,420        1,148,646              1,150,362                   o%
Nevada
                   924,694        1,094,759              1,116,960                   2%
Mississippi
              900,115        1,065,429                933,918                -12%
Arkansas
                 821,978          972,941                 677,603               -lo%
Kansas
                   605,134          716,271                 698,768                 -2%
Kentucky
                 641,709          759,564                698,768                  -.9%
Hawaii
                   545,494          645,679                 666.702                  3%
Delaware
                 515,066          609,662                 630.628                  3%
Utah
                     511,096          604,964                 554,472                 -8%
Rhode Island
             452,600          535,723                 543,763                  2%
New Mexico
               465,763          574,978                 530,423                 -8%
Iowa
                     333,799          395,104                 376,774                 -5%
Nebraska
                 292,135          345,788                 330,011                 -5%
Maine
                    205,421          243,148                 235,150                 -3%
New Hampshire
             160,060          189,456                1%,403                   4%
West Virginia
             173,904         205,643                 165,715               -lo%
Idaho
                    130,115           154,012                142.%0                  -7%
Vermont
                   100,000          117,118                114,903                 -2%
Alaska
                    100,OOO          100,000                104,214                  4%
Virgin Islands
             68,703           93!655                 81.501               -13%
Montana
                   100,OOO          100,000                 76,156               -24%
Wyoming
                   100,OOO          100,OOO                 53,443               47%
South Dakota
              Ioo,ooo          100,OOO                 41,416               -59%
North Dakota
              100,000          100,OOO                 10,689               -89%
Guam
                        3,379            4,529                  4,008               -12%

TOTAL
               S162,705,300     $192,507,300           S192.507,300




                                                               18

StabiMy ~reeofthe      four largest ~antees gatianincrease     in funding under this option
compared with the current formula. Many of the smaller grantees lose funding.
However, those losing the most proportionally are States with relatively low case counts
that would lose the $100,000 floor. Puerto Rico is adversely affected by the removal of
the income factor in the current formula. Their per capita income, at $4,172, is far
below that of any other grantee; the next highest is Virgin Islands ($9,440) followed by
Mississippi ($9,648).

VARIATIONS

If Congress wished to target States with a higher incidence of AIDS (cases per 100,000),
they could introduce an incidence factor into the formula such as that in the current Title
I formula. However, this would produce some inequities in funding per case.

As explained under Option 1, Congress could hold harmless the States losing funding, by
funding them at the prior year’s levels and decreasing allocations to the other States.

Some people we spoke with at the beginning of our study think that States, especially
rural States, need a minimum amount of funding two or more times greater than the
current $100,000 in order to create a continuum of care. If we apply a $200,000 floor in
our FY 1995 example, nine States are eligible. As discussed above under “Equity,”
however, such a floor would reintroduce funding inequities on a per-case basis.

Congress could decide that similar to Title I, Title 11 funds should be targeted to the
States most affected by the AIDS epidemic. For example, in FY 1995 Congress could
fund only the 24 States which collectively reported 91 percent of all new cases nationally
from October 1991 to September 1993. The other 30 States, each with less than 1
percent of the cases reported in that period, would not be funded; collectively, these
States received $15.5 million in FY 1994, just under 10 percent of the total FY 1994
formula allocation.

0K7TON 4: Distribute lltk I and lltlk II Fomudk Fund on a Per-NW-Case BasiY as a
Single Fomudh Gmn&

This option shows Title I and Title 11 formula funds (only) combined into a single
formula grant, with the funds distributed on a per-new-case basis to both States and cities
(EMAs). Our example uses the same 41 cities as Options 1 and 2. We also set a
$200,000 floor for States (not territories) to address concerns that some people we spoke
to raised that large rural States with low case counts need such a floor to develop the
mandated continuum of care.

To calculate the option, we first establish an average amount per case by dividing FY
1995 dollars from the budget request ($374.7 million in Title I and Title II formula funds,
minus SPNS) by the number of new cases reported by States for 2 years prior to FY
1995. We then allocate funds to each State based on its new-case count. For the four
States with allocations under $200,000, we impose the $200,000 floor and recalculate the


                                             19

per-case allocation for the other 50 States. We show the projected allocations compared

with projected FY 1995 Title II allocations, based on the current formula.


This option shows the dollar distribution of funds across States, and between the various

areas in the States with EMAs. Funds could be distributed in a variety of ways. One

way would be to give the entire grant to States, with mandated amounts designated for

each EMA. Another way would be to grant EMAs their allocations directly, with States

granted the balance-of-State portions. We are not recommending any one specific

mechanism by which funds should be disbursed under this option.


Tables 7 and 8 show the results of our calculations. Both tables array States

alphabetically for ease of reading. Table 7 shows the results of this option for the 32

States without EMAs. Table 8 shows the results for the 22 States with one or more

EMAs. This includes Washington, D. C., currently a Title I grantee, which includes the

District of Columbia, currently a Title 11 grantee. Table 8 also includes cities A through

J, which as noted under Options 1 and 2, could be eligible for Title I funding in FY 1995

under the current formula or our proposed formulas.


ANALYSIS


Ei@y      This option greatly reduces per-case funding inequities. First, it eliminates

inequities between EMAs by basing funding on a new rather than a cumulative case

count and then calculating a per-case allocation. Secondly, it provides a more equitable

distribution of funds between EMA States and non-EMA States. This formula only

counts the new cases in EMA States once, unlike today when States receive Title I

formula funds based on the cumulative case counts of the EMAs there, and Title 11 funds

based on the entire State’s new-case count.


The $200,000 floor, however, does produce some funding inequities.      Under this option,

the average per case allocation for all States excepting the four receiving $200,000 is

$2,598. For those four States, their per-case allocations range from $25,000 to $3,509.


Ta~efbzg This option ensures that high-incidence cities are targeted, consistent with

Congressional intent. The $200,000 floor ensures that every State receives a minimum

amount of funding, helping them accomplish a basic goal of Ryan White by establishing a

continuum of care.


FZexibi.Zi@This option provides the flexibility to target aid based on changing case

counts, whether increasing or decreasing.


Reasonab14 Data Requirement      The data required, new case counts, would be the same

as now.


StabiZity: Non-EMA States receive proportionately large increases under this option,

primarily because (former) Title I formula dollars are added to the funds available. (The




                                             20

      four States receiving $200,000 gain thanks to the floor.) Tenofthe     22 EMA States gain
      increased funding 12 of the 22, including the 4 largest States, lose funds.




                                                 TABLE 7

                                                OPTION 4

                                       STATES WITHOUT EMAs
  TITLE I AND TITLE II FUNDS DISTRIBUTED ON A PER CASE BASIS AS A SINGLE FORMULA GRANT
                                       WITH A $200,000 FLOOR

FY 1995 Budget Request (litfe I formula pottion; Titfe II less SPNS): $374,757,300
——      .. ...—                        - ——                    -—.                                      -   —------      -
                                        I        CURRENT      FORMULA          :               NEW      I       Diff,
                               Cases I               Actual       Projected     I        FORMULA        I    Old VS
                              oct91-    I          FY1994          FY1995       I         Projected     I       New
GRANTEE                       Sept 9(3 I             Titte II         Title II I           FY 1995      I  Formula
            -—        ——               -                                                           —    - .—-------- -
ALABAMA                          1170              1,421,553          1,662,633     I     3,039,501                   819’o
ALASKA                             78                100,000            100,OOO     I        202,633              1 os~o
ARKANSAS                          657                821,978            972,941     [     1,706,797                75%
DELAWARE                          472                515,066            609,662     [     1,226,192               101VO
GUAM                                3                   3,379              4,529    [          7,794               727.
HAWAII                            499                545,494            645,679     [     1,296,334               101%
IDAHO                             107                130,115            154,012     /        277,971               80?.
INDIANA                          1201              1,394,908          1,651,095     I     3,120,034                89%
IOWA                              282                333,799            395,104     I        732,598               85%
KANSAS                            523                605,134            716,271     I     1,358,683                w%
KENTUCKY                          523                641,709            759,554     I     1,3S8,683                79?0
MAINE                             176                205,421            243,148              457,224               88%
MISSISSIPPI                       699                900,115          1,065,429           1,815,907                70°h
MONTANA                            57                100,000            100,OOO              20’0,000             100%
NEBRASKA                          247                292,135            345,788              641,672               86%
NEVADA                             836               924,894          1,094,759           2,171,814                98%
NEW HAMPSHIRE                      147                160,060            189,456             381,886              102?’0
NEW MEXICO                         397               485,763            574,978           1,031,352                79%
NORTH CAROLINA                    1707             1,996,053          2,362,646           4,434,554                88%
NORTH DAKOTA                         8                lW,000             100,000             200,000              1oo%
OKLAHOMA                           944             1,133,726          1,341,945           2,452,383                83%
RHODE ISLAND                       407               452,600             535,723          1,057,331                97Y.
SOUTH CAROLINA                     742             2,091,875          2,476,066           4,525,479                83%
SOUTH DAKOTA                        31                100,OOO            100,00’0            200,000              100%
TENNESSEE                          409             1,675,354          1,983,047           3,660,390                85?’0
UTAH                               415                511,096            604,964           1,078,113               78%
VERMONT                             86                100,000            117,118             223,416               91%
VIRGIN ISLANDS                      61                 68,703             93,655             158,470               69%
VIRGINIA                          2196             2,403,511          2,844,=6            5,704,909               10170
WEST VIRGINIA                      139                173,904            205,843             361,103               75%
WISCONSIN                          924             1,069,752          1,266,221           2,400,426                90”A
WYOMING                             40                100,OOO            100,OOO             200,000              1000/0

TOTAL                           18,183          $21,558,097
                                                          $25,437,212                   $47,683,648




                                                                21

                                                      TABLE8

                                                      OPTION4

                                        STATESWITH EMAo
     TITLEI ANDTITLEII FUNDSDISTRIBUTEDON A PERCASEBASISAS A SINGLEFORMULAGRANT
                                       WITHA $200,000 FLOOR

FY 19s5 BudgetRaquaet(TitlaI formulaportion;Tiio II Ieee SPNS):3374,757,300
                                                                                                                         ——
                                r                                      ~                                ;                    Diff :
                         Caeae I         CURRENT FORMUIA                       CURRENT FORMUtA          I NEW FORMUIA ~     Old W
                        Octsl - I           ActualFY1204        I               ProjaotedFf1995                Projaoted [    New
GRANTEE                 Sopt93 I            Tiie I       TRIOII I                  TM* I        TittoII I       FY 1995 1 Formula
                       —.                                                                                                        — ——
ARIZONA                                                                                                    I

 Phoenix                    1155         1,175,959                              1,M6,800                            3,000,533
 Bai. of stata               4s5                                                                                    1,182,028
 Total                      1610                          1,855,3s3             1,s46,890     2,196,140    /        4,182,561             3%
CALIFORNIA                                               28,172,752
 Los Angelaa                 5ss4       12,617,337                             12,S08,41 8                 I       23,079,422
 Oakland
                    1788        2,379,548                              3,234,108                           4,844,980
 Orango

     co.
                    1270        1,420,S50                              2,030,S60                           3,2S9,287
 Rhreida/San Barn.
          1400        1,289,021                              2,118,013                           3, S44,S38
 San Dieoo
                  2105        2,506,ss0                              3,520,s89                           5,468,503
 San Frenoieco
              8488       19,056,980                             14,221,978                  I       16,554,940
 City E
                      740                                               1,352,7S4                  I        1,922,419
 city G
                      8s5                                               1,393,140                  I        1,770,537
 Baf.of stata
               2675                                                                          I        6,940,286
 Total
                     26115                        28,172,762            40,870,271    33,346,920    I       67, S43,213            -9%
COLORADO
                                                                                                  I
 Denver
                     1345         1,528,755                             2,593,040                  I        3,494,127
 Sal. of Stato
               263                                                                                     883,238
 Total
                      160s                         1,7s4,570             2,593,940     2,124,158    I        4,1 77,3s5           -13%
CONNECTICUT
                                                                                               I                     I
 NW Havan
                   1305         1,235,428                             2,510,956                  I        3,390,212    I
 City F
                      732                                                       0                           1,901 ,s36   \
 Bal. of State
               194                                                                          I          503,986    I
 Total
                      2231                          2,246,095            2,510,956     2,858,809    I        5,795,834            11%
FLORIDA

 Forl Laudwdal.
             2013         3,555,421                             4,340,2S8                  I        5,229,500
 Miami
                      3747         6,875,102                             7,235,528                           9,734,196
 Orlando                     1201         1,31s,044                             2,372,8S0                      I    3,120,034
 Tampa& Pate
                1956         1,9S5,256                             3,215,149                      I    5,081,422
 Weet Palm Baach
            1316         1,959,888                             3,114,023                      I    3,41 8,7SS
 CityA
                      1237                                               2,s01,110                           3,213,558
 Sal. of Stato
              3150                                                                              I    8,1 S3,271
 Total
                     14820                         16,361,588           23,078,777     19,366,640       I   37,980,762            -12%
GEORGIA

 Atlanta
                    2729         4,068,052                             4,803,862                      I    7,0ss,570
 Bal.of Stata
               1216                                                                              I    3,159,002
 Total
                      3045                          4,527,285            4,803,882      5,358,780       I   10,248,573              2%
ILLINOIS

 Chicago
                    4233         4,708,676                             5,875,ss1                      I   10,996,758
 Bal. of Stata
               614                                                                                   1,595,088    I
 Total
                      4847                          5,363,021            5,675,8S1      6,349,051       I   12,591,846    \         5%
LOUISIANA
                                                                                                                       I
 NW Orfaans
                 108s         1,801,877                              2,375,415                           2,826,476   I
 Bal. of State
               013                                                                                    2,371,850   \
 Total
                      2001                          2,4S4,411             2,375,415     2,952,531       I     5,198,325   /        -2%
MARYLAND

  Baltimore
                 22S7         2,232,355                              3,563,947                           5,967,293       \
  Bal. of Stat.
             1152                                                                                    2,992,739       I
 Total
                      3449                          3,825,968             3,883,947     4,201,905       I     8,960,032       I    11%
MASSACHUSETTS
                                                                                                                       I
  Boston
                    2S27         3,021,876                              4,281,146                           7,603,947       I
  Bal. of State
              372                                                                                      966,405       I
  Total
                     3200                          3,501,905       I     4,281,146     4,145,080       I     8,570,353       I     2%




                                                                       22

                                                                                                                                ~~
                      cases       CURRENT FORMUIA                      CURRENT FORMLJIA                  ~ NEW FORMUL4        Old Vi
                     oot91 -         ActualFY 1994                      Projaotad FY 1995                       Projected       New
GRANTEE              Sapt93          Ttio I        Tie II                  Ttie I         TRlell         [       FY 1995     Formula


MICHIGAN
 Detrott               1839       1,623,48S                            2,404,019                                4,777,472
 Sal. of state          697                                                                                     1,810,711
 Total                 2536                      2,874,019             2,404,019           3,401 ,s57           6,588,183         12%
MINNESOTA
 city D                 754                                                         0                           1,958,762
 Bal. of Stato          107                                                                                       277,971
 Total                  881                        970,420                                 1,148,646            2,236,761         49%
MISSOURI
 Kansas City           1050       1,251,712                            1,970,526                                2,727,757
 Saint Louis           1131       1,178,039                            1,7s6,574                                2,938,184
 Bal. of Stat.          148                                                                                       3s4,4s4
 Total                 2329                      2,71 6,(M1            3,756,102           3,214,924            6,050,425        -15%
NEWJERSEY
 Bargan-Passaic         944       1,277,031                            2,243,10S                                2,452,383
 JerseyCity             932       2,306,302                            3,533,059                                2,421 ,20S
 Newark                2378       5,166,261                            5,395,693                                6,177,720
 CityJ                  571                                            1,400,781                                1,4s3,380
 BaLof state           1616                                                                                     4,198,148
 Total                 6441                      6,650,657            12,572,S42           7,872,106           18,732,841        -22%
NEW YORK
 Nassau/SutfoikCo.     1360       1,4Q3,882                            2,426,528                                3,S65,052
 New York City        20451      45,835,360                           32,980,861                               53,128,913
 Bal. of Stat.         2432                                                                                     6,318,005
 Total                24263                     26,126,095            35,407,390          30,924,375           83,031,970          -5%
OHIO
 Cm H                   667                                                         o                           1,706,797
 Bal. of Stat.         1529                                                                                     3,972,134
 Total                 2166                                                                2,981 ,S39           5,678,930         47%
OREGON
 City B                 904                                    I        1,744,1s3                                2,348,4SS
 Bal. of State          111                                                                                        288,363
 Total                 1015                      1,170,946     I        1,744,1s3          1,386,000             2,636,832        -1 9%
PENNSYLVANIA                                                   I
 Philadelphia          3115       3,479,453                            4,614,459                                8,082,348
 Bai. of Stata          77s                                                                                     2,023,736
 Total                 3894                      4,421,998     I       4,614,459           5,234,136           10,116,082            3%
PUERTO RICO                                                    I
 Ponce                  522         976,793                    I        2,034,804                                1,356,085
 San Juan              2713       4,561,223                             5.147,513                                7,048,005
 Bal. of State         1182                                                                                      3,070,675
 Total                 4417                      7,521,643     I        7,182,317          8,903,057            11,474,784        40%
TExAs
 Dallas                2564       3,445,1n                     I        4,293,970                                8,660,923
 Houston               3610       5,676,753                             6,223,576                                9,378,288
 city c                 627                                    I        2,040,121                                2,148,433
 city I                 643                                    I        1,422,856                                1,670,426
 Bal. of State         2464                                                                                      6,401,136
 Total                10106                     11,813.82Y     I      14060,323           13,983,535            28,259,207         -7%
WASHINGTON STATE
 Seattle               1467       1,617,949                    I        2,780,750                                3,811,066
 Sal. of State          565                                                                                      1,467,793
 Total                 2032                      2,262, S86    I        2,760,750           2,678,129            5,278,659           -3%
WASHINGTON D.C.                   5,225,S66
 Dist. of Col.         2W                        2,155,787     I                            2,551,692            5,439,927
 Washington D.C.       1611                                    I        6,157,582                                4,704,731
 Total                                                         I        6,157,582           2,551 ,6S2          10,144,658         14%

TOTAL THESE STATES   125.901   $159,904,501   S166,600,793     I    $182,250,000        $167,070,088         S327,073,S52




                                                              23

VARIATIONS

Using 3 years of case counts might guard further against fluctuations in year to year
allocations.

As noted under previous options, Congress could retain either the current incidence
factor in the Title I formula or the income factor in the Title II formula, in order to
further target funds under this option. However this would produce further per-case
funding inequities.

Alternatively, Congress could use Title I supplemental funds, as now, to meet the special
needs of specific States or cities.

As noted under Option 1, Congress could fold Title I supplemental funds into this grant
to make a single formula grant. This would serve to minimize per-case funding inequities
across grantees, as well as simplify administration.

COMMENTS

The PHS commented on thisreport;
                               thefulltextoftheir

                                                comments isinAppendixD.

            Secretary
The Assistant       forPlanningand Evaluation                 We thankall

                                            commented verbally.

thosewho commented.


Inresponse
         tothecommentswe received, and inviewofinformationnow available

                                                                     on

theFY 1995budgetrequest,we recasted
                                  ourfourproposedformulas looking

                                                                forwardto

FY 1995.We believethisupdatedviewwillbe more helpful

                                                   duringreauthorization

          We alsomade othereditorial

discussions.                       changesinthereportinresponsetothe

commentsreceived.





                                             24

                           APPENDIX             A

                                FUNDING FORMUI.AS

TllZE k



                                                PerCapita
 Incidenee





                                                    h+
                                                 fCumul.
 AIDSCases

      Em
Funding     = (.75T)    AIDSCases

                   Cumul.       EM&_    + (.25-I-)

                  [Cumul.       EMA~oT )
                        AIDSCases
               er Capita Incidenee

                                                    f Cumul. AIDS Cases

                                                    ‘TOT




Funding StateX = T ‘FStateX
                   (‘F&ate~oT    )



‘FStateX
      = (# New AIDSCases
                       ofStatex)
                              q Av!z.       KaIncome
                                     Per C.aU-      U.S
                             (?Avg. PerCapita Income

                                                   Statex




        = E ‘FStateX

‘FStateToT

          x=1





0P170N 1



Funding
      E-     = (#ofNew AIDScases”
                               EMAJ Total
FundsAmrouriated
                                    [# ofNew AIDSCiMC!S EMATOT1




                                       A-1

OP7TON 2



Funding
      EM&=T
                  (m&fT---)
                   ‘FE




‘FE-     = (#New AIDScases”
                         ofEMQ          ~AvQ.PerCaDitaIncome

                                                            U.S.

                                                      Income

                                        (vAvg.PerCapita    E@    1




‘FEMATO~=	E ‘FEMAX

          x=1




o?TloN    3



Funding State. = (#of New AIDS cases*State.)   [Total Funds ADmomiated        ]

                                           ‘- (#ofNeWAIDS-State~o~J



0F770N 4



Funding GranteeX= (# of New AIDSeases*
                                    Granteex) Total Funds ADDrODtiEited
                                             I # of New AIDS cases Grantee~o~ )


$200,CKKl

       Floor Adjustment



Adjusted
      #	ofNew   = # ofNew AIDScases
                                  Granteero~

                                          -# ofNew AidsW= of

AIDScases
        Grantee
              TOT                          Grantees
                                                  receiving

                                                         floor



Adjusted Total Funds Appropriated = Total Funds Appropriated- Funds Appropriat~ to

                                                              Grantees receivingfloor




* # ofNew AIDScases
                  is

                    a hvo-yearcase count


EMA = Eligible
           Metropolitan

                    l%ea


T = Total
        FundsAppropriated
                      forTitle
                             IorTitle

                                    11


DF = Distribution

             Factor


FOR OPTION 1ONLY         EM& = Cities
                                    withnewly
                                            reported
                                                   AIDScases

                                                           nationally

                         inthetoptwo-thirds     cases

                                        ofthetotal   reported.





                                               A-2

                             APPENDIX                              B

                          AIDS CASES and PER CAPITA INCOME
                              FOR METROPOLITAN AREAS*
.-—-—.-z.—               -—         -...        .. ....----..—-——       ..- ....——
                                                   Cases Re orted                      Per
                         Cumulative                            8 ct91 -            Capita
cm                         cases          Rate                 Sept 93          Income**
                                    --———-         —...                 -.-——.
New York
                  55699         155.3                  20451             $16,281
Los Angeles
               21850           61.1                   8864             16,188
San Francisco
             17424         279.8                                     19,965
Chicago
                    9376           34.5                   4233             12,899
Washington D.C.
                           58.7                   3905             18,881
Miami
                      9563         120.1                    3747              9,799
Houston
                    9312           72.8                   3610             14,261
Philadelphia
               7169           42.5                   3115             12,W1
Boston
                     6627           40.2                   2927             15,581
Atlanta
                    6679           56.4                   2729             15,279
San Juan, PR
               6745           87.3                   2713              6,383
Dallas
                     5891           64.4                   2564             16,300
Newark
                     7413           80.6                   2378              9,424
Baltimore
                  4661           66.6                   2297             11,994
San Diego
                  4909           56.7                   2105             16,401
Fort Lauderdale
                           88.4                   2013             19,814
~~~p:-St.   Pete
           :E             66.6                   1956             14,374
                            3529           28.7                   1639              9,443
Oakland
                    4164           57.2                   1788             14,676
Riverside/San Bern.
        2754           36.6                   1480             13,879
SeatUe
                     3546           49.1                   1467             18,308
Nassau/Suffolk CO.
         3266           38.4                   1380             20,864
Denver
                                    58.9                   1345             15,590
West Palm Beach
            F&             86<5                   1316             15,712
New Haven
                  2731           60.4                   1305             12,968
Orange Co. CA
              2832           29.0                   1270             19,890
City A
                     2189           94.7                   1237             13,661
Orlando
                    2291                                  1201             13,879
Phoenix
                    2245           E::                    1155             14,096
Saint Louis
                2245           33.3                   1131             10,798
New Orleans
                2905           46.9                   1068             11,372
Kansas City, MO
                           45.4                   1050             13,799
Bergen-Passaic
             2476           52.8                                    21,234
JeJe~ City
                 3001         111.8                      932            13,060
                            1949           40.3                                    14,478
Ci~ C
                      1719           65.0                     827            14,295
City D
                     1629           20.9                     754            16,642
City E
                     1504           31.5                     740            14,087
City F
                     1414           50.2                     732            11,081
City G
                     1525           332                      665            16,905
City H         “
           1441           20.6                     657              9,258
City I
                     1605           31.1                     643                  na
City J
                     1548           34.2                     571
Ponce PR
                   1411           74.5                     522              3,7::

Avg U.S. Per Capita Income: $14,420

Total Cumulative Cases:                                       339,250
Cumulative Cases, Metro. Areas:                               288,572
Total New Cases:                                              144,084
New Cases, Metro. Areas                                       120,4&l

�Reported in HIV/AiDS Suweillance Report, Issued October 1993.
Includes three quarters of reporting under new CDC definition.
�*Reported by Bureau of the Census as of 1989 (most recent available).


                                                B-1

      APPENDIX                            C
     AIDS CASES AND PER CAPITA INCOME
       FOR STATES AND TERRITORIES
—.—.—.           ....-—..---.—-——-       .-... —.-.—
                       Cases Reported                 Per
                           from Ott 91-           Capita
STATE                          Sept 93*        Income**
-.-———           —-—                     —---
California
                      26115            16,409
New York
                        24263            16,501
Florida
                         14620            14,698
Texas
                           10106            12,904
New Jersey
                       8441            18,714
Illinois
                         4847            15,201
Puerto Rico
                      4417             4,172
Georgia
                          3945            13,631
Pennsylvania
                     3894            14,068
Maryland
                         3449            17,730
Massachusetts
                    3299            17,224
Michigan
                         2536            14,154
Missouri
                         2329            12,989
Connecticut
                      2231            20,169
Virginia
                         2196            15,713
Ohio
                             2186            13,461
Dlst. of Cd.
                     2094            18,681
Washington
                       2032            14,923
Louidana
                         2001            10,635
South Carolina
                    1742           11,897
No* Carolina
                     1707            12,885
Aruona
                            1610           13,461
Colorado
                          1808           14,821
Tennessee
                         1409           12,255
Indiana
                           1201           13,149
Alabama
                          1170            11,486
Oregon
                            1015           13,418
Oklahoma
                           944           11,893
Wisconsin
                          924           13,276
Minnesota
                          861           14,389
Nevada
                             836           15,214
Mississippi
                        699            9,848
Arkansas
                           657           10,520
Kentucky
                           523           11,153
Kansae
                             523           13,300
Hawaii
                             499           15,770
Delaware
                           472           15,854
Utah
                               415           11,029
Rhode Island
                       407           14,981
New Mexico
                         397           11,246
iowa
                               262           12,422
Nebraska
                           247           12,452
Maine
                              176           12,957
New Hampshire
                      147           15,959
West Virginia
                      139           10,520
idaho
                              107           11,457
Vermont
                             86           13,527
Alaska
                              76           17,610
Virgin Islands
                      61            9,440
Montana
                             57           11,213
Wyoming
                             40           12,311
South Dakota
                        31           10,661
North Dakota
                          6          11,051
Guam
                                  3           9,928

TOTAL
                          144.084

�Reported  in CDCS HIV/AIDS Surveillance Report, issued October 1993.
Inciudes three quarters of reporting under new CDC definition.
�*Reported by Bureau of the Census as of 1989 (most recent available),


                         c-1
APPENDIX        D

  AGENCY COMMENTS




       D-1
DEPARTMENTOF HEALTH & HUMAN SERVICES               PubIii Health Serwce



                                                   Memorandum
. FEB22]994
Deputy Assistant Secretary for Health Management   Operations



Office of Inspector General (OIG) Draft Report   “The Ryan White

Act : Funding Formulas,” OEI-05-93-00330


Inspector General, OS



Attached are the Public Health Senice’s comments on the

subject draft report. The report contained no recommendations

and our comments reflect general concerns and suggest

technical revisions to narrative and tables.

                                       �




                    Anthon


Attachment

              PUBLIC I-IEALTH SERVICE fPHS) COMMENTS ON THE
            OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT:
     “THE RYAN WHITE ACT: FUNDING FORMULAS, “ 0EI-05-93-O0330


GENERAL COMMENTS

The PHS appreciates the timeliness of the OIG examination of

the formulas governing the Ryan White Comprehensive AIDS

Resources Emergency (CARE) Act funds and proposed options to

change the formulas. Since this report is the first in a

series of studies intended to provide information that may be

useful during the reauthorization of the Ryan White CARE Act,

we offer the fbllowing comments for your consideration.


Background

Wy formula           funding      approach       to ciistri,buting           HIV/AIDS       funds

will     not fully        address      the total       need      for assistance.              It is

reasonable         that     a formula       should     take      into    account       new cases

reported,        and perhaps         include       multiple        years     of reporting,         as

proposed       with     the   2 or 3 Year case             count.        Over time,         the

possible       contribution          to funding        disparity         caused      by the

expanded       AIDS case        surveillance         definition          should      subside.

This     decrease       in cii.sparity       will    occur       once    all    States      have

fully      implemented        Surveillance          methods        under     the new

definition         and individuals           who meet the new case                 definition

are fully        incorporated          into    case     counts.


Ryan White funding has provided an incentive to timely
reporting of AIDS cases since there i.sa direct financial
incentive for a State to report cases by the funding cut-off
date.      On the other     hand,    States     have not had sufficient
resources     to adequately       conduct     other    aspects   of AIDS
surveillance,         such as followup       cases   reported    with    no
identified      risk.     Any options       which   might    be proposed                  and/or
adopted that would expand data required of State-AIDS

surveillance or HIV sero-surveillance programs should

concurrently provide sufficient additional resources for

strengthening these programs.


QF&&ZU2

In reviewing the options for funding formulas presented in the

OIG report, a clarification on reporting of AIDS-related

deaths would be useful. The PHS aurees that a reasonable

approach would be to base funding zormulas on persons living

with AIDS, as opposed   to cumulative   or incident   AIDS cases
which may include deceased persons. The reason stated i.nthe
report however,  that this  is not feasible     since reporting  of
AIDS-relateci        deaths      is not      required       by     Federal     law    i.s
incorrect.          Indeed,      neither       reporting         of AIDS     cases      nor   AIDS-




                                                      D-3
                                                                                                         2



related deaths is required by Federal law. However,

ascertainment of vital status of persons reported with AIDS is

done routinely by all State health departments through review

of death certificates.  States voluntarily share such

information with the Centers for Disease Control and

Prevention (CDC). Accurate State-specific data prevalence
(the     number      of persons           living      with   AIDS) by city         and State
would      require       that:         (1) AIDS-case         reports      be updated       promptly
when persons          die,      and (2) movements              of persons      with     AIDS from
city-to-city          or State-to-State                  be accurately       monitored.          While
States       use death         certificates            to update     AIDS case       reports,       to
base     funding       on such updates               may create      a disincentive           to
complete        death      reporting.            In addition,        tracking      the movement
of individuals             from one geographic               area    to another       during      the
course       of their        HIV illness           would    be beyond      the scope       of
affected        communities            (e.g.,      this    would   require     making      a change
of residence           in a person            with    AIDS a reportable          event     to
health       departments).

Criteria

The OIG report examines each option against five criteria that

they consider useful in assessing any new allocation

methodology:  equity, targeting, flexibility, reasonable data

requirements and stability.  In the case of “targeting,” the

report states that “funds should be targeted to areas with the

greatest concentration of cases, and is not spread so thin as

to be ineffective.”  The PHS disagrees that $1 million to

$2 million for new Title I grantees is ineffective.   There is

substantial evidence that funds to new Title I grantees are

extremely useful in creating a community planning process as

well as filling gaps in a continuum of care.


The criterion of “stability” seems inconsistent with the

criterion of “flexibility. “ The tables clearly demonstrate

that proposed changes in funding formulas result in

substantial disruptions of current funding and future funds.

The “flexibility” criterion, combined with the “targeting”

criterion will create a scenario in which certain States and

eligible metropolitan areas could move in and out of funding

as demographic changes occur, resulting in major disruptions

in “stability .“


In the past, the formula was based on cases reported from
statistical units (Metropolitan Statistical Areas - MSAS) as
published in CDC’S HIV/AIDS Surveillance Reports.  Because
these MSAS are not administrative units, MSAS frequently cross
administrative/legal jurisdictions. The result is that CDC
receives numerous ad hoc requests by the various agencies that
                                                                                              3


use the Ryan White formula (e.g., HRSA, HUD) to parcel out

these cases across State/county/city lines.


In addition, part of the formula requires calculation of a

rate to ensure equitable distribution of funds. However,

because it is difficult to obtain accurate denominator data,

these rates are only crude estimates of the impact of the

epidemic in the targeted areas, and they are not responsive to

changes in the demographics of the affected populations.

Denominators for the calculation of rates are not readily

available, especially by geographic and demographic subgroups.

There are necessary delays following the decennial census

until stratified population counts are made available to CDC

by the Bureau of the Census. Official estimates of annual
population          change     by demographic/geographic        substrata       are
frequently          unavailable.       Therefore,      CDC is required       to develop
crude       estimates       of annual   population       change with    limited
statistical           resources.

Another    criterion       to be considered        in developing       funding
options    is “reasonable          data  requirements.     ” Data used in the
formulas     to distribute         funds   should    be readily     available     and
reliable.        It is reasonable        to base funding        formulas      on AIDS
statistics      because      national    AIDS surveillance is currently the
only system that collects data completely and consistently on

persons who are in care, or require care, for severe HIV

disease.       However, these data are “readily available and

r~liable” only insofar as concerted collaborative efforts

among CDC and other State/local health departments continue to

prioritize the collection of AIDS suneillance data.


lft in the future,            AIDS suneillance         were reemphasized          or the
quality       and completeness         of the data were compromised             due to
fiscal      or persofiel       constraints       at Federal/State/local           levels,
then    long term legislation              tied  to these    data    could   result      in
inequitable       distribution         of resources.        The data     are available
and reliable        and are dependent           on the continued        support     for
the AIDS surveillance             system.

Methods

The tables     provided    in the report do not i.nclucie comparative
data  necessary      for any meaningful  analysis  and the inclusion
of Fiscal Year (FY) 1994 data would provide the needed
clarification.         Specifically, for Tables 4 through 7:

(1) formulas proposed should be based on FY 1993 data for

comparison of actual ET 1993 awards and changes that           would
have  occurred     if DrODOSed formulas had been used: and
(2) actual data oh F? 1994 awards should have be& provided,
again to highlight how proposed formulas would have changed



                                                  135

                                                                                     4



the funding picture.  If actual FY 1994 data had been used,
major funding disruptions that would result from formula
changes would have been highlighted, e.g., a 31 percent
decline in funding for New York City and a 46 percent decline
in funding for San Francisco in Table 4. By comparing
proposed FY 1994 to actual FY 1993, any funding disruptions
caused by the formula change were masked by the 76 percent
Title I funding increase from FY 1993 to FY 1994, an increase

not likely to be repeated in future years.


TECHNICAL COMMENTS

(1) Definitions:  The report uses the words “equity” and

“parity” as if they mean the same thing. Equity means

fairness, and is not an absolute term. Parity means equality

as in amount, status or character. Equal funding for each

recently reported AIDS case is one interpretation of equity,

but many other interpretations are equally valid.   For

example, an interpretation inconsistent with the stated

purpose of the Ryan White CARE Act is in the report itself,

“to establish services for AIDS and HIV patients who would

otherwise have no access to health care.”   It may be useful to

provide a more extensive discussion of why “equity’”was

selected as the principal determinant for the analysis and

driving force behind the proposed allocation formulas.   Is

this the factor that best describes the need for Ryan White

services?


(2) The cover page should be more accurately titled, “The Ryan
White CARE Act: Funding Formulas.”

(3) Page 2, second     full   paragraph.     The last    sentence      should
read:    “The Health   Resources     and Services     Administration
(=A)    in the Public     Health    Service  administers       Titles   I and
II of the Act.      The HRSA and the Centers        for Disease       Control
and Prevention     (CDC) were to administer       Title    III of the Act.”

(4) page 2, second         paragraph       under Title    I Section.   The last
sentence      should    be rewritten       as follows:     “HRSA is required    to
allocate      funds   to grantees      within     60 days after     an
appropriation        becomes   available.”

(5) Page 2, third paragraph under Title I Section should be
amended to read, “as supplemental grants to eligible
metropolitan areas   which have demonstrated a severe need for
additional financial   assistance to address the epidemic and
the ability to allocate funds expeditiously to areas of
greatest need.”
                                                                                                     5



(6) On Page 3, Line 2, insert “areas most affected as well as”

between the words “on” and “the.”


(7) Page 3, first paragraph. The last sentence should be
deleted and replaced with: “To get the money out quickly to
meet the greatest needs, States are required to allocate 75
percent of services within 120 days after an appropriation
becomes available.”

(8)   page 3, Title III Section, first sentence should read:
“Title III(a), intended to provide formula grants to States
for early intervention semices on an outpatient basis, and
intended to be administered by CDC, has not been funded to
date. “

(9 ) Page 3, second paragraph. The last sentence: delete the

word “drugs” and insert the words *approved treatments.”


 (10 ) Under the heading           of Special       Projects    of National

Si.gni.ficance      rewrite     the last     two sentences        as follows:      “ln

FY 1991, HRSA awarded             approximately        $4.4 million      for

22 projects.          These projects        continued       in FY 1992 with

$5.2 million        and four new projects            funded    with an additional

$836,000.        In FY 1993, nearly          $6.1 million       was awarded    to

support       27 projects.        An additional        $2.97 million,

$4.84 million,         and $5.10 million          in FY 1991,       1992, and 1993,

respectively,         was mandated        by Congress       to be used for

reimbursement         of dental      health    providers      who provided

uncompensated         care to people        with HIV/AIDS.”


(11 ) Page 4, SCOPE AND METHODOLOGY. The first line in the
first  paragraph should read: “The Ryan White Act will be
reauthorized                 in”FY 1996.”

(12)      Page         4,    first    paragraph,   second   sentence,      third     line.
Replace          the        word     “debate” with “discussion.”

(13 ) Page 5, first              paragraph,         mentions        the implementation          of
the January          1993 AIDS case            definition         as an important        backdrop
with     significant          impact on the distribution                   of funds.       Another
important         backcirop      factor      with     significant         hpact    which     has
not been mentioned               i.s the December            31,    1992 Offf.ce     of
Management         and Budget         (OMB) definition              of Metropolitan
Statistical          Areas.        The new definitions                in many cases      are
substantially            different        than the definitions               they  replaced,
and they        significantly           affect      the numbers         of AIDS cases being
reported in affected metropolitan areas. For example, New
Haven, CT now includes Bridgeport/Stamford CT, which increases
the number of AID cases reported in this metropolitan area,

and would affect any funding based on AIDS cases reported.

.   .,


                                                                                               6



         (14) Page 5. Rewrite the first sentence of the third

         paragraph as follows:  “Title II funds are distributed to all

         States, Puerto Rico, the District of Columbia, and up to five

         U.S. territories via a formula.”


         (15) Page 5, fourth paragraph is not accurate.    The CDC’S

         expanded AIDS surveillance case definition includes all HIV-

         infected persons who have < 200 CD4+ T-lymphocytes/uL or have

         CD4+ T-lyreDhocvtes, 14 Percent of total T-1 vnmhocvtes, and

         adds pulmonary TB, recurrent pneumonia, and invasive uterine

         cervical cancer. The CD4+ T-cell percentage has been omitted

         in the OIG report.


         (16) Page 6. The second sentence in the second paragraph
         should read:  “Partly as a result of the new CDC definition,
         the number of eligible cities increased to 34 in l?y 1994 and
         HRSA expects an increase by as many as 4 to 7 in FY 1995.”

         (17) Page 10. Add to the second paragraph:   “Additionally,
         the number and the proportion of people with AIDS and H~
         requiring care, those already in care, and fie insurance
         status of those people, is not available.”

         (18) Page 10, third paragraph, last sentence. The report
         never acknowledges that services are also provided to people
         with HIV infection who do not have an AIDS diagnosis.

         (19) Page  11. The first paragraph under Option I needs
         clarification; denominator is cases reported to Title I
         eligible metropolitan areas (-).

         (20) Page 11 second paragraph,          last      sentence.        The proposed
         variation is the way supplemental              funds are      currently    awarded.

         (21)    Page 12, Table   4.    A column  giving     the       actual    FY 1994
         formula    allocation,   which   i,s now available,           would    be helpful.

         (22) Page 13. In regard to the methodology for Option I,

         second paragraph, comparison should also be made to the actual

         1994 distribution.  This distribution would help identify

         instances of service delivery disruption in cities which get

         level or decreased funding and data which does not take into

         account full year funding of services providers.


         (23) Page 14, second paragraph.  The statement to “hold
         [cities that would lose funds] harmless” at the FY 1993
         levels, fails to recognize that changes may occur in

         FY 1996.





                                                 D-8

                                                             7



(24) Page 14, third paragraph. The variation collapsing all

Title I funds into a formula grant fails to take into account

the role of the supplemental grant.


(25) Page 15. Table 5 should add a column for actual

distribution of 1994 dollars.


(26) Page 16.  Option 3: first paragraph.  This option does
not examine the impact of dollars per case from Title I in the

“equity” discussion.


(27) Page 17. Table 6 should include a column with actual

FY 1994 dollars.


(28) Pages 21-22, Table 7. States without EMA include the
District of Columbia. Under the CARE Act, the District of
Columbia receives Title II funds and also qualifies as an EMA
and receives Title I funds. The amounts proposed for Guam and
the Virgin Islands fail to take into account that the minimum
Title II grant awards apply only to States and do not include
territories.

(29) Tables 7 and 8.    Add a column with FY 1994 actual

dollars.


(30)   Table 8 should include the District of Columbia.




                                  D-9

